                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                              The Inspector General
                                                              W ashington, D.C. 20230



December 28, 20 12

The Honorable Darrell lssa
Chairman
Committee on Oversight and Government Reform
2157 Rayburn House Office Building
U.S. House of Representatives
Washington, DC 20515-6143

The Honorable Elijah E. Cummings
Ranking Member
Committee on Oversight and Government Reform
2471 Rayburn House Office Building
U.S. House of Representatives
Washington, DC 20515-6143

Dear Chairman lssa and Ranking Member Cummings:

In response to your request of December 5, 20 12, we are providing current information on our
office's work plan and highest-priority unimplemented recommendations, including:

   •   The five highest-priority unimplemented short-term recommendations (see enclosure
       I),
   • 	 The five highest-priority unimplemented long-term recommendations (see enclosure 2),
       and
   • 	 The ways in which Department and bureau management solicit OIG input on how to
       improve efficiency and reduce waste (se~ enclosure 3).
Each year, we develop a risk-based work plan that includes our legislatively mandated work,
such as reviews of IT security and annual financial statement audits. It also includes other
priorities that we discussed in our annual Top Management Challenges report, such as improving
acquisition and contract operations, as well as managing the development and acquisition of the
National Oceanic and Atmospheric Administration's (NOAA's) environmental satellite
program. Our plan contains the flexibility to perform critical unplanned additional work that is
either required by new legislation or requested directly by Congress.

Our 5 most important unimplemented short-term recommendations to the Department or its
bureaus (for further details, see enclosure I) concern the following program areas:

   • 	 Recommendations related to NOAA deficiencies in budgetary controls and
       accounting procedures, reported in the Department of Commerce fiscal year (FY)
       2012 financial statement audit report (OIG-13-006-A ), November 15, 2012,
    • 	 Recommendations related to NOAA environmental satellite programs, including
        those reported in joint Polar Satellite System: Continuing Progress in Establishing Capabilities,
        Schedules, and Costs Is Needed to Mitigate Data Gaps (OIG-12-038-A), September 27,
        20 12, and Successful Oversight of GOES-R Requires Adherence to Accepted Satellite Acquisition
        Practices (OSE-18291 ), November 20, 2007,
    • 	 Recommendations related to the National Telecommunications and Information
        Administration's (NTIA's) and International Trade Administration's (ITA's)
        IT security, including those reported in Significant IT Security Program Improvements Are
        Needed to Adequately Secure NT/A 's Systems (OIG-12-035-A), September 07, 20 12, and
        Improvements Are Needed to Strengthen ITA's Information Technology Security Program (OIG­
        12-037-A), September 27, 2012, and
    • 	 Recommendations related to NOAA acquisitions, reported in NOAA's Cost-Plus-Award­
        Fee and Award-Term Processes Need to Support Fees and Extensions, (OIG-12-027-A), May
        18,2012.
Our 5 most important unimplemented long-term recommendations to the Department or its
bureaus (for further details, see enclosure 2) concern the following program areas:

    • 	 Recommendations related to NOAA deficiencies in budgetary controls, reported
        in the Department of Commerce fiscal year (FY) 20 12 financial statement audit report
        (OIG-13-006-A), November IS, 20 12,
    • 	 Recommendations related to USPTO IT automation, reported in Patent End-to-End
        Planning and Oversight Need to Be Strengthened to Reduce Development Risk (OIG-1 1-033­
        A), September 29, 20 I I, and
    • 	 Recommendations related to the Census Bureau's 2020 decennial census, including
        those reported in 20 I0 Census: Final Report to Congress (OIG-1 1-030-1), June 27, 20 I I,
        and High-Quality Maps and Accurate Addresses Are Needed to Achieve Census 2020 Cost­
        Saving Goals (OIG-12-024-1), May I0, 20 12.
If you have any questions or require additional information, you or your staff may contact me at
(202) 482-4661 or Ann Eilers, Principal Assistant Inspector General for Audit and Evaluation, at
(202) 482-2754.

Sincerely,


1'~ 3._____:_
Todd J. Zinser

Enclosures




                                                   2
Enclosure 1: OIG’s Highest-Priority Unimplemented
Short-Term Recommendations
1.	 Recommendations related to deficiencies in NOAA financial management
    oversight, reported in the Department of Commerce fiscal year (FY) 2012
    financial statement audit report (OIG-13-006-A), November 15, 2012

   Accounting for General Property

   We identified several weaknesses involving untimely recording of capital assets and
   construction work-in-progress (CWIP) transfers, unadjusted property records, incomplete
   property inventories, improper CWIP capitalization, and unclear CWIP policies. Because
   NOAA’s accounting activities for property are decentralized, NOAA’s Finance Office must
   rely on various line offices to provide specific information on property acquisitions and
   disposals.

   Accounting for Satellites

   The accounting for satellite transactions originates within NOAA’s National Environmental
   Satellite, Data, and Information Service (NESDIS), whose staff does not have significant
   financial accounting training and experience. Because NOAA’s Finance Office does not have
   sufficient oversight of the accounting for satellites, accounting issues related to satellites
   continue to surface. During the FY 2012 audit, we identified the following:

      	 Incorrect classification of a $616 million satellite ground system,

      	 Unrecorded $183 million satellite transferred from NASA,

      	 Inadequate impairment analysis related to Joint Polar Satellite System, and

      	 Insufficient documentation of 17 out of 61 Intra-governmental Payment and
         Collection (IPAC) payments to other federal agencies.

   Recommendations

   We provided NOAA with four recommendations to improve its accounting for property
   and eight recommendations to address its accounting for satellites.

   Of these, the highest-priority short-term recommendations include one regarding property
   accounting and three regarding satellite accounting:

      	 Implement greater Finance Office oversight for property accounting transactions,

      	 Establish stronger Chief Financial Officer oversight of accounting for satellites and
         related areas,




                                               1

   	 Improve the process to identify and determine the financial statement impact of
      significant events or transactions, particularly those related to satellite programs, and
      ensure that accounting positions are based on standards, and

   	 Establish and implement stronger NOAA-wide policies and procedures for review
      and approval of IPAC payments, and work with NASA to ensure that sufficient
      documentation is received for all charges, to enable a determination of the nature of
      the charge and the period of performance.

Status of Recommendations

NOAA is in the process of developing a corrective action plan to address the
recommendations.




                                            2

2.	 Recommendations related to NOAA environmental satellite programs,
    including those reported in:

  A. Joint Polar Satellite System: Continuing Progress in Establishing Capabilities,
     Schedules, and Costs Is Needed to Mitigate Data Gaps (OIG-12-038-A),
     September 27, 2012

     In February 2010, NOAA partnered with NASA to establish the Joint Polar Satellite
     System (JPSS) program—which, at that time, planned to launch two satellites at an
     estimated cost of $11.9 billion to collect data for short- and long-term weather and
     climate forecasting through 2026. In its FY 2011 budget submission, NOAA
     reported that JPSS, running through 2024, would cost $11.9 billion. Requirement
     changes and an extended life cycle through 2028 resulted in a revised cost estimate
     of $14.7 billion. In its FY 2013 budget submission, however, NOAA committed to
     capping the cost of the program at $12.9 billion.

     Our September 2012 audit found, among other things, that NOAA lacks a policy
     that ensures consistent and reliable cost estimating for its major system acquisitions.
     We found that NOAA lacks a clearly defined program and a more mature cost-
     estimating process. The program’s revised cost estimate, derived to meet a life-cycle
     cost cap and artificially flattened funding profile, is not consistent with typical space
     acquisitions. Finally, without an independent cost estimate, NOAA cannot assess
     whether the program is executable under these constraints.

     Recommendations

     Two significant recommendations remain unimplemented:

         	 Develop a policy that adheres to cost-estimating best practices and

         	 Ensure that an independent cost estimate adequately tests the viability of the
            program’s funding profile.

     Status of Recommendations

     NOAA is working with the Department’s Office of Acquisition Management to
     (1) supplement the Department’s November 2012 Policy on Acquisition Project
     Management with specific cost estimating guidance and (2) complete an independent
     cost estimate. We expect NOAA to implement both recommendations within 1
     year.




                                           3

              B.	 Successful Oversight of GOES-R Requires Adherence to Accepted Satellite
                  Acquisition Practices (OSE-18291), November 20, 2007

                      In 2005, the Department and NOAA assumed oversight and management
                      responsibility for the entire Geostationary Operational Environmental Satellite
                      (GOES-R) program, now projected to cost $10.9 billion for four satellites that will
                      enable uninterrupted short-range severe weather warning and forecasting through
                      2036. Since then, NOAA has led GOES-R’s program management and acquisition,
                      thus leaving the Department with direct oversight authority for both the ground and
                      space segments. Our 2007 review found that the Department lacked a workable
                      oversight structure—not just for GOES-R, but for all major acquisitions.

                      Recommendation

                      The following recommendation remains unimplemented: complete and implement
                      the Department’s major system acquisition policy and, for satellite programs, ensure
                      the policy incorporates the key decision points in NASA Procedural Requirements
                      (NPR) 7120.5D1 and requires comprehensive independent reviews at all key decision
                      points.

                      Status of Recommendation

                      In June 2010, the Department created a new process to manage acquisitions and
                      reduce risk called the Commerce Acquisition Framework. On November 6, 2012,
                      the Department issued a memorandum on its policy on Commerce Acquisition
                      Project Management. The memorandum establishes the policy for implementation
                      on all Department acquisition projects and programs. We expect the Department to
                      develop an administrative order for major system acquisition policy within 1 year.




                                                            
1
 NPR 7120.5D is a NASA policy that NOAA has adopted for its satellite acquisition activities. This procedure was
updated August 2012 (NPR 7120.5E) and still contains key decision points.


                                                               4

3.	 Recommendations related to the Department’s IT security, including those
    reported in Significant IT Security Program Improvements Are Needed to
    Adequately Secure NTIA's Systems (OIG-12-035-A), September 07, 2012, and
    Improvements Are Needed to Strengthen ITA's Information Technology Security
    Program (OIG-12-037-A), September 27, 2012

   A. Recommendations related to the Department’s IT security, including those
      reported in Significant IT Security Program Improvements Are Needed to
      Adequately Secure NTIA's Systems (OIG-12-035-A), September 07, 2012

      For our NTIA audit, we determined that fundamental steps for securing NTIA’s
      information and systems have not been taken. Specifically, we found (1) inadequate
      security categorizations that jeopardize critical bureau information; (2) significant
      weaknesses in IT software and hardware inventory practices; (3) major inadequacies in
      NTIA’s process to remediate security weaknesses; (4) weaknesses in managing its IT
      security workforce and developing effective IT security policies and procedures, and (5)
      significant deficiencies in key IT security controls. These issues have resulted in
      ineffective management of security controls needed to protect NTIA’s systems and
      information.

      Recommendations

      Two significant recommendations remain unimplemented.

      First, the Assistant Secretary for Communications and Information should revise the
      authorization status of NTIA’s systems to interim authorization to operate until the
      following activities have been completed:

         	 System owners and appropriate NTIA officials collaborate to identify and
            categorize all information types that are processed, stored, or transmitted by
            each system and categorize each system accordingly,

         	 System owners develop and maintain an accurate hardware and software
            inventory for their systems,

         	 NTIA implements and assesses appropriate IT security controls according to
            Department policy and NIST SP 800-53, and

         	 NTIA follows the POA&M process required by the Department’s IT security
            policy.

      Second, the Assistant Secretary for Communications and Information should ensure that
      system owners, IT security officers, authorizing officials, and other staff with critical IT
      security roles are appropriately trained, earn certifications as required by Department
      policy, and have the required metrics incorporated into their performance plans.




                                               5

   Status of Recommendations

   We expect NTIA to implement both recommendations within 1 year.

B. Recommendations related to Improvements Are Needed to Strengthen ITA's
   Information Technology Security Program (OIG-12-037-A), September 27, 2012

   For our ITA audit, we identified security weaknesses, including inadequate security
   categorization that may affect protection against critical information and security control
   deficiencies that increase the likelihood of a successful cyber attack. The security control
   deficiencies include (1) deficiencies with vulnerability scanning and patch management;
   (2) weaknesses in securing databases; (3) the presence of unauthorized software and use
   of unauthorized removable media, and (4) risks related to network implementation.

   Recommendations

   Two significant recommendations remain unimplemented: that the Under Secretary of
   Commerce for International Trade

      	 Ensure that only authorized software and USB devices are used on both servers
         and workstations and

      	 Strengthen the worldwide enterprise network’s security posture by reducing the
         threats associated with allowing network traffic to flow freely between all
         computing components.

   Status of Recommendations

   We expect ITA to implement both recommendations within 1 year.




                                            6

4.	 Recommendations related to NOAA’s Cost-Plus-Award-Fee and Award-Term
    Processes Need to Support Fees and Extensions, (OIG-12-027-A), May 18, 2012

   As of June 2011, NOAA's incentive contracts had a potential maximum value of
   approximately $1.6 billion, including approximately $87 million in available award-fee pools
   and about $386 million in available award-term periods.

   Our audit found that—while NOAA gave contractors high ratings, resulting in substantial
   award fees or extended contract periods of performance, for eight of nine contracts—the
   ratings associated with four of these contracts lacked sufficient support to demonstrate that
   the contractor met or exceeded the award-fee or award-term evaluation criteria. On some
   contracts, the performance monitors did not maintain documentation to support the
   ratings; on other contracts, the examples and comments provided did not contain enough
   information to determine whether the ratings, award fees, and award terms were
   warranted. In addition, award-fee and award-term plans developed by NOAA did not
   consistently and clearly identify criteria for evaluations or contain payment structures that
   encouraged contractors to excel. In addition, descriptions defining scores to rate
   contractor performance were subjective and unclear. Also, weaknesses existed in the
   management of NOAA’s award-fee and award-term contracts.

   Recommendations

   Two significant recommendations remain unimplemented:

      	 Require performance monitors to provide narrative comments that identify specific
         strengths, weaknesses, and deficiencies to support assigned ratings, and

      	 Develop measurable and outcome-based criteria for assessing contractor
         performance for award fees and award-term extensions.

   Status of Recommendations

   NOAA plans to issue an Acquisition Alert to its staff members requiring (1) documentation
   for the basis for all award-fee and award-term determinations, and (2) award-fee and award-
   term plans that encourage contractor excellence and describe how contractor performance
   will be measured against evaluation criteria. According to NOAA officials, the bureau will
   monitor compliance through its Acquisition Review Boards and Policy Division reviews.
   NOAA plans to implement these recommendations by December 31, 2012.




                                               7

Enclosure 2: OIG’s Highest-Priority Unimplemented
Long-Term Recommendations
1.	 Recommendations related to deficiencies in NOAA financial management
    oversight, reported in the Department of Commerce fiscal year (FY) 2012
    financial statement audit report (OIG-13-006-A), November 15, 2012

       Budgetary Controls

       The National Weather Service (NWS), a component of NOAA, circumvented budgetary
       controls by moving expenses between accounts to prevent exceeding budget authority. An
       internal Departmental review identified that NWS was misusing summary level transfers
       (SLTs).1 The Department determined that the circumvention of budgetary controls resulted
       in an Antideficiency Act (ADA) violation.

       The financial statement audit also found that many of these types of journal entries lacked
       (a) adequate supporting documentation to describe the purpose of the entries, and (b)
       evidence of adequate supervisory review. In addition, one SLT dated June 14, 2012, and
       three other questionable transactions were identified and referred to NOAA for further
       review to determine whether they violated the ADA.

       Recommendations

       We provided NOAA with five recommendations to improve its budgetary controls. Of
       these, the highest-priority long-term recommendations are summarized below:

           	 Implement the recommendations arising from the Internal Inquiry into Alleged
              Mismanagement of Funds within the National Weather Service, dated May 11, 2012, and

           	 Implement the actions described in the Deputy Secretarial Decision Memorandum,
              dated May 24, 2012.

       Status of Recommendations

       The Department and NOAA are in the process of implementing a detailed corrective action
       plan developed to address the May 11, 2012, report and Deputy Secretarial Decision
       Memorandum. While some of the corrective actions may be completed within the year,
       others may exceed the 1-year time line.




                                                            
1
 Summary level transfers are a type of journal entry that complicates the detection of funds moving between
accounts, preventing the transactions from being flagged during program reviews and audits.


                                                               1

2.	 Recommendation related to Patent End-to-End Planning and Oversight Need to Be
    Strengthened to Reduce Development Risk (OIG-11-033-A), September 29, 2011

       In 2010, The United States Patent and Trademark Office (USPTO) began the Patent End-to-
       End (PE2E) project to develop the next generation of computer systems designed to fully
       automate patent processing in an effort to modernize its systems and reduce the significant
       backlog of more than 700,000 unprocessed patent applications.

       We found that USPTO performed enough short-term planning to implement the first
       segment of the project; however, it neglected PE2E high-level, long-term planning—which
       systems development best practices identify as the first steps when starting a project of
       such scope. Specifically, USPTO lacks (a) a plan for releasing PE2E functionality based on
       prioritized, high-level requirements, and (b) a high-level model of its service architecture.2
       Unless USPTO improves its current long-term planning, it cannot guide the project’s
       building and deployment strategies. Unnecessary rework could leave USPTO at risk of not
       achieving its goal of fully automating the patent process in a timely and economical fashion.

       Recommendation

       We recommended that USPTO officials improve PE2E planning by developing:

              	 A description and schedule of releases based on prioritized high-level requirements
                 for the entire project and

              	 High-level designs for the service architecture for the entire project.

       Status of Recommendation

       As of September 2012, work is underway to further define and develop a more long-term
       plan that encapsulates USPTO’s business objectives and strategies.




                                                            
2
    A service architecture outlines the reusable software components of a project.


                                                               2

3.	 Recommendations related to the decennial census, reported in 2010 Census:
    Final Report to Congress (OIG-11-030-I), June 27, 2011, and High-Quality Maps
    and Accurate Addresses Are Needed to Achieve Census 2020 Cost-Saving Goals
    (OIG-12-024-I), May 10, 2012

       A. Recommendations related to the decennial census, reported in 2010 Census:
          Final Report to Congress (OIG-11-030-I), June 27, 2011

              While 2010 Census operations were successfully completed, this constitutionally
              mandated activity incurred a high cost and a level of risk that should not be repeated.
              The 2000 Census cost $8 billion, the 2010 Census cost $12 billion, and—if not
              changed—the 2020 Census could cost as much as $30 billion, according to a GAO
              estimate.3 Census’s latest estimates for the lifecycle cost of the 2020 Census currently
              range from $12.8 – 18.0 billion. Fundamentally changing the decennial census is critical
              to reduce costs and save about $12 billion over the 2020 decennial census lifecycle.

              Recommendations

              Over the previous decade and throughout 2010 Census field operations, OIG issued
              quarterly reports and audits, inspections, and evaluations. From our oversight, we also
              developed findings on ways to improve the 2020 Census. Our Final Report to Congress
              contained 19 recommendations resulting from these findings.

              Of these findings, the highest-priority long-term recommendations include:

                      	 Obtain and use independent cost estimates to validate internally derived cost
                         estimates (that include contingency reserves),

                      	 Explore alternative approaches for conducting the 2020 Census that include (1)
                         Internet and web-based response options, (2) automated field data collection
                         alternatives, (3) utilizing administrative records, and (4) incorporating into the
                         decennial process experienced field representatives who conduct nondecennial
                         Census surveys each year,

                      	 Explicitly address enumerator safety in collaboration with the Department, law
                         enforcement agencies and Congress, and

                      	 Align system development schedules with operational deadlines to allow
                         adequate time to test systems before their deployment.

              Status of Recommendations

              We are working with the Department to monitor the implementation of 

              recommendations. 

                                                            
3
 U.S. Government Accountability Office, December 2010. 2010 CENSUS: Data Collection Operations Were Generally
Completed as Planned, but Long-standing Challenges Suggest Need for Fundamental Reforms, GAO-11-193. Washington,
DC: GAO, 27.


                                                               3

B. Recommendations related to High-Quality Maps and Accurate Addresses Are
   Needed to Achieve Census 2020 Cost-Saving Goals (OIG-12-024-I), May 10, 2012

   The Census Bureau maintains a database containing a complete list of all the nation’s
   living quarters (the master address file, or MAF) and geospatial data (the topologically
   integrated geographic encoding and referencing system, or TIGER) to use in all
   demographic and decennial programs. The Bureau’s method of collecting and tabulating
   decennial census data is to link (geographically encode, or geocode) MAF addresses to
   TIGER.

   The Census Bureau spent nearly $1.4 billion on (a) 2000–2010 database maintenance;
   (b) an 8-year geographic initiative to improve database accuracy, and (c) its 2009
   operation to visit and verify or add every place a person lives or could live. Our review’s
   objectives were to (1) review the Bureau’s progress on its 2010 geographic initiative; (2)
   evaluate the impact of various address-updating operations on the database and identify
   trends that introduced error, and (3) review the Bureau’s procedures for updating the
   map and address files.

   Recommendations

   Our report contained five recommendations. Our highest-priority long-term 

   recommendations include: 


      	 Develop a MAF/TIGER database (MTdb) measure for determining address list
         quality at a low level of geography that (a) provides a fair and equal opportunity
         for targeting selection, (b) drives selection and planning decisions, and (c) is well-
         documented and verifiable,

      	 Work with the Department to determine the feasibility of improving methods of
         sharing MTdb information throughout the decade with governmental entities
         (partners) to create a uniform, national address list, and

      	 Develop and implement quality indicator tools, including use of administrative
         records, to ensure that updates to the MAF are accurate.

   Status of Recommendations

   We are working with the Department to monitor the implementation of 

   recommendations. 





                                            4

Enclosure 3: How the Department Solicits OIG’s Input for Improving
Efficiency and Reducing Waste
The Department and bureau management have solicited OIG input in a number of instances
related to internal controls over program management:

   Recovery Act. With the Department of Commerce receiving $7.9 billion from the
   American Recovery and Reinvestment Act of 2009 (the Recovery Act), bureau management
   has reached out to OIG for assistance in several ways. One example involves NTIA’s
   oversight of the Broadband Technology Opportunities Program (BTOP), the Department’s
   largest Recovery Act grant program. At the agency’s request, we have:

      	 Participated in pre-award workshops, briefing potential applicants about the
         Recovery Act’s accountability and transparency requirements,

      	 Led post-award workshops, briefing recipients on fraud prevention, and

      	 Provided training sessions to NTIA staff and recipients based on lessons learned
         from previous audits of federal fund recipients.

   In addition, we helped NTIA draft its program-specific audit guides for independent audit
   firms assessing for-profit BTOP awardees. Finally, we respond to NTIA requests for review
   and advice on individual grant award-related issues that arise from:

      	 Grant monitoring activities performed by NTIA staff and

      	 Complaints made against specific awards.

   This assistance has included making site visits to BTOP award recipients.

   NOAA satellites’ and other program offices. Bureau and Departmental management have
   requested our input with audit analysis and results as they respond to OIG
   recommendations to help programs increase efficiency or reduce waste. NOAA satellite
   program offices (the Department’s largest program operation) have asked to receive timely
   audit data and analysis for making immediate recommended improvements. Other NOAA
   program offices have requested our help to resolve current operational issues in the areas
   of cost estimation and award fees.

   Meetings and future collaborations. The IG attends select Departmental meetings to
   keep posted on bureau events. We are also working with the Department to identify
   additional Departmental and bureau oversight meetings at which OIG could participate in
   an advisory capacity. This will ensure that OIG stays informed and can weigh in early on
   efficiency and waste reduction initiatives.




                                               1

